                  U.S. SMALL BUSINESS ADMINISTRATION
                     OFFICE OF INSPECTOR GENERAL
                           Washington, DC 20416


                                                                        AUDIT REPORT
                                                                    ISSUE DATE:
                                                                      FEBRUARY 15, 2001
                                                                    REPORT NUMBER: 1-06




TO:            Herbert L. Mitchell, Associate Administrator,
               Office of Disaster Assistance
               Jane P. Butler, Associate Administrator, Office of Financial Assistance
               Theodore R. Wartell, Director, Office of Policy



FROM:          Robert G. Seabrooks,
               Assistant Inspector General for Auditing

SUBJECT:       Final Audit Report - Results Act Performance Measurement for
               the Disaster Assistance Program

      Attached is a copy of the final audit report. The report contains one finding and four
recommendations. Management replies were responsive to three of the four recommendations.
Management responses are synopsized in the report and included verbatim as Attachment C.

       The findings in this report are the conclusion of the Office of the Inspector General
Auditing Division based upon the auditors testing of the auditee’s operations. The finding and
recommendations are subject to review and implementation of corrective action by your office in
accordance with existing Agency procedures for audit follow-up and resolution.

        Please provide your management response to the recommendations within 30 days from
the date of this report on the attached SBA Forms 1824, Recommendation and Action Sheet.

       Should you or your staff have any questions or wish to discuss the issues further, please
contact Garry Duncan, Director, Credit Programs Group at 202-205-7732.
                                           AUDIT REPORT

                                      RESULTS ACT
                               PERFORMANCE MEASUREMENT
                                        FOR THE
                              DISASTER ASSISTANCE PROGRAM

                                 AUDIT REPORT NUMBER 1-06

                                          February 15, 2001




The findings in this report are the conclusion of the OIG’s Auditing Division based on testing of SBA
operations. The findings and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
proprietary information subject to the provisions of 18 USC 1905 and must not be released to the public or
another agency without permission of the Office of Inspector General.
                                         AUDIT REPORT
                            RESULTS ACT PERFORMANCE MEASUREMENT
                                            FOR THE
                                 DISASTER ASSISTANCE PROGRAM

                                                        Table of Contents

                                                                                                                           Page

SUMMARY....................................................................................................................... i

INTRODUCTION

           A. Background ....................................................................................................... 1

           B. Objectives and Scope.......................................................................................... 1

RESULTS OF AUDIT

Finding

Disaster Assistance Program Performance Indicators need to be
Established or Revised ......................................................................................................3

           •    Performance indicators did not measure disaster victim recovery....................3
           •    Need for a unit cost indicator to measure program cost....................................4
           •    Data supporting the field presence indicator is not reported consistently.........5
           •    The currency/delinquency indicators need revision..........................................5

Recommendations ...............................................................................................................5

OTHER MATTERS

Planned underwriting compliance indicator........................................................................7
Planned customer satisfaction indicator..............................................................................7

APPENDICIES

      A-               A Framework for Implementing the Government Performance and
                       Results Act–Disaster Assistance Program
      B-               Definitions
      C-               Management Responses
      D-               Audit Report Distribution
                                         Summary

        In late 1998, Congressional leaders requested that Inspectors General review how
effectively their agencies were measuring performance under the Government Performance and
Results Act of 1993 (Results Act) and the reliability of the underlying data. In response to these
requests, the Office of the Inspector General initiated a series of audits to evaluate the
performance indicators the Small Business Administration (SBA) developed for its major
programs.

        This report assesses whether SBA effectively implemented the performance measurement
requirements of the Results Act for the disaster assistance program. In enacting the Results Act,
Congress intended to improve the efficiency and effectiveness of Federal programs by
establishing a system to set goals for program performance and to measure results. To
implement the Results Act, agencies must prepare multiyear strategic plans, annual performance
plans that include performance indicators, and performance reports. Our audit objective was to
determine if SBA effectively implemented the performance measurement requirements of the
Results Act for the disaster assistance program. To answer this objective, we determined if: (1)
program goals and performance indicators were aligned with the mission, (2) the performance
indicators focused on the results of the program in terms of efficiency and effectiveness, and (3)
reliable supporting data existed.

        We found that SBA had not fully implemented the performance measurement
requirements of the Results Act for the disaster assistance program. Specifically, the program
did not have performance indicators to determine the extent to which it accomplished its mission
under the Small Business Act. Furthermore, disaster home loan currency and delinquency rates
were misleading since they excluded a large portion of disaster loans and the indicator for
effective field presence was not consistently applied. As a result, program officials could not
measure the extent the program helped businesses and families recover from disasters, and
whether the products and services were cost effectively delivered.

        We recommend that the Associate Administrator for Disaster Assistance, in coordination
with the Office of Policy, (i) develop an outcome indicator to measure results aligned with the
statutory mission, (ii) develop an indicator to gauge program delivery costs, and (iii) consistently
report disaster field staff presence. In addition, the Associate Administrator for Financial
Assistance should revise the disaster loan currency/delinquency performance indicator.

        SBA management replies were responsive to three of our recommendations. Their
response included both short-term and long-term plans to implement the
recommendations. The action management proposed for recommendation 1D was not
fully responsive. The evaluation of auditee comments section of the report includes the
actions SBA needs to take before recommendation 1D is considered responsive.




                                                 i
                                       INTRODUCTION

A. Background

    In 1993, Congress passed the Results Act with the objective to improve Federal program
effectiveness and public accountability by promoting a new focus on results, service quality, and
customer satisfaction. The Results Act is intended to improve the efficiency and effectiveness of
Federal programs by establishing a system to set both long-term strategic and annual goals for
program performance and to measure results. Performance indicators are contained within
annual plans and are an integral part of annual reports. The Results Act also requires agencies to
prepare annual reports on their performance for the previous fiscal year.

        The SBA Disaster Assistance Program implements the Small Business Act, Public Law
85-536, as amended. The purpose of the program is to help businesses and families recover from
disasters. SBA serves as the Federal government’s disaster bank. The Office of Disaster
Assistance (ODA) assesses the extent of damage, approves the loans, and disburses loan
proceeds. Once the loan is fully disbursed, the Office of Financial Assistance (OFA) services the
loan. Disaster loans requiring liquidation services are then transferred to a SBA District office or
a liquidation center.

        The ODA plans, directs, and administers the Agency’s disaster assistance program.
Since the inception of the program in 1953, SBA has approved 1.5 million disaster loans for over
$27 billion. In FY 1999 the program approved 36,000 loans while responding to 189 disasters.
ODA implements the program through a headquarters’ and four area offices.

        The OFA services SBA’s disaster home and business loans through six servicing centers.
In addition, a contract loan agent handles servicing for 30 percent of the disaster home loans. At
the end of FY 1999, the disaster loan portfolio was comprised of 270,000 loans with an
outstanding loan balance of $6.8 billion.

B. Objectives and Scope

        The objective of the audit was to determine if SBA effectively implemented the
performance measurement requirements of the Results Act for the disaster assistance program.
To fulfill this objective, we sought answers to three basic questions. Do the program's goals and
performance indicators align with its mission? Do the performance indicators show the results of
the program in terms of efficiency and effectiveness? How reliable is the supporting data?

        To answer the mission alignment question, we reviewed SBA’s strategic plan, the Fiscal
Year 1999 and 2000 Annual Performance Plan and draft 2001 Performance Plan. A logic model
was developed to identify the relationship between the mission and purpose of the disaster
assistance program, its core business processes, key products, and desired program outcomes
(see Appendix A). To evaluate the extent to which the performance indicators aligned with the
statutory mission, we compared the indicators to the mission to ensure that each was addressed.
If there was not a performance indicator for an aspect of the mission, this was considered an area
for improvement.



                                                 1
       To determine whether the performance indicators addressed the Results Act requirements
(program effectiveness and efficiency), we segregated the performance indicators into the
following categories:
       i)             Outcomes
       ii)            Customer satisfaction
       iii)           Portfolio status
       iv)            Cost
       v)             Output/process

If a category did not have at least one performance indicator, we considered this an area for
improvement.

        To determine whether disaster assistance indicators were supported by reliable data, we
traced reported performance measurement data back to original source documents located in the
disaster loan files at Disaster area offices. In addition, we reviewed and relied upon the audit
work done by SBA’s independent financial statement auditors to determine the reliability of
disaster loan balances and payment dates. We tested the reliability and analyzed the underlying
data to determine whether it was sufficient, accurate, objective, and relevant.

        Fieldwork was performed from October 1999 through August 2000. The audit was
performed in accordance with generally accepted Government Auditing Standards. The outside
consulting firm, Results, Inc., was retained to assist us in the audit.




                                                 2
                                             RESULTS OF AUDIT

FINDING          Disaster Assistance Program Performance Indicators Need to be Established
                 or Revised

Performance indicators did not measure disaster victim recovery

        Performance indicators should measure whether the disaster assistance program helps
businesses and families recover from disasters. Such indicators would measure program
outcome. In addition, program indicators should measure the cost of program delivery. Yet, the
indicators reviewed measured only program activities and the status of the disaster loan portfolio.
The indicators reviewed were:

        •   SBA field presence within 3 days of disaster declaration
        •   Loans processed within 21 days
        •   Home loan currency rate
        •   Home loan delinquency rate

        The disaster program has indicators measuring program efficiency e.g., establishing field
presence within 3 days of the disaster, and processing loan applications in 21 days. While we
agree these output activity measures are valuable for monitoring day-to-day operations, the
indicators do not measure the extent to which businesses and families were helped during
disasters. The indicators also do not measure the cost of delivering loan products and services to
disaster victims.

        Program officials stated that many factors contribute to post disaster end outcomes, i.e.,
spurring employment and stabilizing the tax base. Such factors include business and homeowner
insurance, assistance from the Federal Emergency Management Agency and local governments
and changes in general economic conditions. We agree measuring SBA’s contribution to
spurring employment and stabilizing the tax base is not practical given these converging factors.
In our opinion, developing intermediate outcomes are a more suitable alternative. During the
audit we developed some potential intermediate outcomes that should be considered to gauge the
ultimate success of the disaster program. These intermediate outcomes are presented in the
Framework for Implementing the Results Act as shown in Appendix A.

        A recent GAO report evaluating SBA's FY 2000 Annual Performance Plan faulted the
plan's continuing focus on outputs rather than outcomes. 1 Our analysis reached conclusions
similar to GAO's finding. The Results Act offers an alternative when program goals cannot be
expressed in objective, quantifiable and measurable form. Agencies may obtain authorization
from the Office of Management and Budget to use an alternative of expressing performance
goals or state why it is not feasible or practical to express a performance goal in any form. SBA
did not pursue these alternatives.


1
  Managing for Results- Opportunities for Continued Improvement in Agencies' Performance Plans,
(GAO/GGD/AIMD-99-215, July 1999)


                                                      3
Need for a unit cost indicator to measure program cost

        The Senate Governmental Affairs Committee wrote that, whenever possible, agencies
should include performance indicators that correlate program activity with program costs. One
performance indicator that draws such a correlation is cost per unit of output. OMB Circular A-
11 in its general guidelines states that agencies should strive to include goals or indicators for
unit costs even if only approximate costs can be estimated. Program officials have not developed
a program delivery unit cost because they are unable to predict activity levels and costs required
to service an unknown number and amount of disaster loans. Without a cost indicator, program
management can not balance program delivery requirements against program costs.

        Since program officials stated that program activity depends upon the number and the
extent of disasters declared, they do not believe targeted unit cost can be achieved. However, a
program unit cost calculation would provide the SBA and Congress a concise picture of program
delivery cost.

        The Results Act affords program officials the opportunity to explain the reasons for not
achieving designated goals. As such, we believe variances from one period to another could be
documented and used for future planning. Accordingly, management should develop a fixed and
variable cost analysis based on historical experience.

Ø Illustrative example of a unit cost indicator

        Following is an OIG developed illustrative example of how a unit cost base line
associated with the processing of disaster loans could be used as an indicator. This example uses
net applications processed as the production activity unit. Net applications processed are defined
as applications received less screening and accelerated and processing declines.


                   Fiscal Year              Unit Cost per Net Application Processed
                      1994                                   $752
                      1995                                   1,398
                      1996                                   1,158
                      1997                                   1,034
                      1998                                   1,227
                      1999                                   935
                     Average                                $1,084


        The above chart illustrates unit cost variability for disaster loan processing. For Fiscal
Year 1994, the year of the Northridge Earthquake, $752 represented the program’s lowest unit
cost for the 1994-99 timeframe. During this period, program costs were spread over the largest
number of processed applications (228,000). In contrast, for Fiscal Year 1998, only 64,000
applications were processed at a unit cost of $1,227. This resulted in the second highest unit cost
reported. Each year’s disaster activity level as well as other operational factors would impact
program unit cost. Accordingly, these additional factors should become a part of the unit cost
story. This example illustrates how a loan processing unit cost indicator could be developed.


                                                 4
Data supporting the field presence indicator is not reported consistently

        The Senate Governmental Affairs Committee emphasizes the success of the Results Act
depends on the reliability of the data. The SBA disaster field presence indicator (staff at disaster
scene within 3-days of a declaration) did not consistently measure whether loan services were
delivered to disaster victims in a timely manner. We found the field presence indicator was
measurable, however, the underlying data was not reliable because SBA’s field presence was not
adequately defined nor consistently applied by disaster area offices. Without reliable and
measurable data, program officials do not have the information needed to improve performance.

        For FY 1999, we reviewed disaster declaration files at three of the four disaster area
offices for 18 of the 69 disasters declared that required a SBA field presence. The review
showed that field presence was not consistently reported because the area offices did not report
field presence in the same way. Two area offices defined field presence as the date they arrived
at the disaster scene, while one area office defined field presence as the date they were available
to assist disaster victims. Each area office independently interpreted field presence because a
definition of field presence was not provided. As a result, the indicator does not consistently
measure SBA’s accomplishment of the field presence goal.

The currency/delinquency indicators need revision

        Although program officials stated that currency and delinquency rates reflect the quality
of disaster loans, the measurement of this indicator was misleading. The indicator excludes
many disaster loans made by SBA. OFA officials excluded two loan categories when measuring
currency and delinquency, e.g. disaster loans not serviced in SBA servicing centers and all
business loans. OFA officials told us that the disaster home loan indicator included only home
loans where OFA directly supervised operations. Therefore, the indicator reported only disaster
home loans serviced by the four home loan servicing centers (59 percent) excluding all contract
service centers and SBA District Office serviced loans. In addition, all disaster business loans
(52 percent of the loan dollars) were not included in the indicator computation. Because these
loans were excluded, the currency rate was overstated by 5.7 percent (95.4 versus 89.7) and the
delinquency rate was understated by 1.7 percent (1.2 versus 2.9).

Recommendations

We recommend that the Associate Administrator for Disaster Assistance in coordination with the
Director, Office of Policy:

       1.A     Develop program outcome indicators that measures mission results. Potential
               intermediate outcomes presented in the Framework for Implementing the Results
               Act in Appendix A should be considered.
       1.B     Develop a fixed and variable cost analysis based on historical experience to gauge
               program delivery costs.
       1.C     Consistently report field staff presence at disaster sites.




                                                 5
We recommend that the Associate Administrator for Financial Assistance in coordination with
the Director, Office of Policy:

       1.D      Revise the disaster loan currency/delinquency indicator to include all disaster
               loans.

Auditee Comments

        The Office of Disaster Assistance stated they are taking steps to establish specific
performance indicators to measure program outcomes. In addition, they have developed a draft
Activity Report that reflects expenditures (obligations) and loan production to derive a “unit
cost” which represents an analysis of program costs. They have also developed a draft definition
of “an effective field presence” and will be sharing this definition with the Area Directors” at the
next Area Director’s meeting.

       The Office of Financial Assistance stated they are in the process of proposing new
performance measures which should be more reflective of activity than current agency measures.
Specifically:

       •     disaster business loans serviced in the commercial loan servicing centers will be
             measured by the existing Currency and Delinquency Rate standard.
       •     disaster home loans serviced in the home loan servicing centers will be measured by
             the existing Currency and Delinquency Rate standard.
       •     all disaster home and commercial loans serviced by district offices should be
             measured separately by a currency and delinquency standard established by the
             Office of Field Operations.
       •     disaster home loans serviced by the private sector contractor (ACS) should not be
             measured using the same standard that is applied to SBA centers. In contrast, they
             believe ACS’s performance should be measured by compliance with their contract
             with SBA, as measured through audits, site visits, and reviews.

Evaluation of Auditee Comments

        ODA agreed with our finding and their planned actions are responsive to recommend-
ations 1A, 1B, and 1C.

        OFA’s planned actions for disaster loans serviced in commercial and home loan servicing
centers are responsive to recommendation 1D.

        OFA's response that the Office of Field Operations should develop standards for field
offices and that ACS performance should be measured through audits, site visits, and reviews is
not fully responsive to recommendation 1D. The OIG will consider the reply responsive if the
following actions are taken:

       •     OFA coordinates with the Office of Field Operations to ensure appropriate standards
             are developed.


                                                  6
       •   The contractor's performance is measured in the same manner that SBA's
           performance is measured. The contract does not require measurement of
           currency/delinquency. The contract needs to be modified to require a comparable
           currency and delinquency standard as established for SBA loans. The only difference
           between home loans serviced by a service center and those serviced by the contractor
           is that contractor serviced loans are no longer under OFA control; however, the same
           performance measures should apply to the loans. OFA still has the responsibility to
           report on the currency and delinquency rates for these disaster loans. See
           Appendix C for the complete text of the management responses.

OTHER MATTERS

Planned underwriting compliance indicator

        The underwriting compliance indicator (annual quality assurance review) was not
objective. This review measured annual underwriting compliance based on an analysis of 400
loans, i.e., 100 loans from each of the four disaster area offices. To test the appropriateness of
using this review as a Results Act performance indicator, we selected 24 of 300 loans included in
the FY 1999-quality assurance review. At our request, four experienced disaster loan officers
reevaluated the selected loans for underwriting compliance deficiencies. The FY 1999 quality
assurance review showed that 15 underwriting errors were made for these loans. The
reevaluation found 48 errors were made for the same loans. Therefore, we question whether the
quality assurance review is sufficiently precise for planned use as an effective performance
indicator.

Planned customer satisfaction indicator

        Another planned performance indicator (customer satisfaction survey) will measure
satisfaction with services and products delivered through the disaster loan program. For the
planned indicator to be effectively used, the following areas need strengthening.

   •   Send the customer satisfaction survey to all disaster loan applicants instead of the current
       practice of sending it to only borrowers whose payments are current.
   •   Focus questions on customer satisfaction with the delivery of program products and
       services.
   •   Measure the degree of importance customers place on disaster loan products and services.
   •   Allow participants to express degrees of dissatisfaction as well as satisfaction with
       program services or products.




                                                 7
         A Framework for Implementing the Government Performance and Results Act
                                                                        Disaster Assistance Program
                                        Needs to tie back to purpose. (When end outcomes are difficult to identify or are not cost efficient, shift to intermediate outcomes. )


                                                                                                             These are the areas where program performance is evaluated.




                                                                                                 Potential Intermediate Outcomes
                       Process                            Products                                            (Developed by OIG)                                  ODA Identified
   Purpose             (Activities)                        (Outputs)                            A                       B                      C                  End Outcomes          Impact
                                                                                          Customer                 Behavior             Physical
                                                                                             Attitudes               Changes               Condition
Help businesses     Assessment                  Physical Disaster Loans                                                                                            Spur Employment      Sum of the
and families                                      to Individuals                                                                                                                        outcomes
                    Declaration                                                       • Timeliness                Begin Repairs         Repair Damaged             Stabilize Tax Base
recover from                                          • Real Property
                                                                                      • Right Amount                                      Property
natural disasters   Verification                                                      • Ease of Use
                                                                                      • Helpfulness of                                  Replace Damaged
                    Application                                                          Government                                        Property
                     Processing
                                                     • Personal Property              •    Timeliness             Begin Repairs         Repair Damaged
                    Disbursement                                                      •    Right Amount                                   Property
                                                                                      •    Ease of Use            Purchase
                    Servicing                                                         •    Helpfulness of           Replacement         Replace Damaged
                                                                                            Government              Property               Property
                                                Physical Disaster Loans
                                                  to Businesses
                                                   • Property                         •    Timeliness             Begin Repairs         Repair Damaged
                                                                                      •    Right Amount                                   Property
                                                                                      •    Ease of Use
                                                                                      •    Helpfulness of                               Replace Damaged
                                                                                            Government                                     Property

                                                      • Economic Injury               •    Timeliness              Customer
                                                                                      •    Right Amount              Returns
                                                                                      •    Ease of Use
                                                                                      •    Helpfulness of
                                                                                            Government


                    Areas where efficiency (relative to cost, time, labor                 Areas where effectiveness is measured (Has the mission been accomplished) .
                    hours) is measured.
                                                                                                                                                                                                     Appendix A
                                                                                        Appendix B




                                            Definitions


Outcomes - the measured results of a program activity compared to its intended purpose.

Intermediate Outcomes - identifying program accomplishment by measuring customer attitudes,
behavior, and physical changes.

Outputs - the tabulation, calculation, or recording of activity or effort and can be expressed in a
quantitative or qualitative manner.

Performance goal - a target level of performance expressed as a tangible, measurable objective
against which actual achievement can be compared, including a goal expressed as a quantitative
standard, value, or rate.

Performance indicator - a particular value or characteristic used to measure processes, outputs
or outcomes.

Verification - an assessment of data reliability considering data completeness, accuracy,
consistency, timeliness and the related control practices.

Validation - the process for ensuring that measured values adequately represent performance
related to the achievement of the agency program goals.
                                                                                       Appendix C




Date:          Feb 9 2001

To:            Robert G. Seabrooks
               Assistant Inspector General for Auditing

From:          Herbert L. Mithcell
               Associate Administrator
               for Disaster Assistance

Subject:       Draft Audit Report – Results Act Performance Measurement for The Disaster
               Assistance Program

We have reviewed the findings and recommendations of your report. I would like to present the
actions we are taking to address the recommendations made in the Draft Audit Report.

Recommendation 1.A – Develop program outcome indicators that measures mission results.
Potential intermediate outcomes presented in the Framework for Implementing the Results Act in
Appendix A should be considered. We are taking steps to establish specific performance
indicators to measure program outcomes. Many of the “Intermediate Outcomes” recommended
in Appendix A of the audit report can be measured by evaluating responses in our existing
customer service survey. However, we are revising our existing survey questionnaire to insure
that we can address the issues in your report and adequately identify and measure all relevant
program outcomes.

Recommendation 1.B – Develop a fixed and variable cost analysis based on historical
experience to gauge program delivery costs. We have developed a draft Activity Report that
reflects Expenditures (Obligations) and loan production to derive at a “unit cost” which
represents an analysis of program costs. As we develop this model, we intend to measure current
fiscal year activity and expenses to historical activity and expenses and identify and elaborate on
any variations.

Recommendation 1.C Consistently report field staff presence at disaster sites. We have
developed a draft definition of “an effective field presence” and will be sharing this definition
with the Area Directors at the next Area Director’s meeting. The definition should remove any
inconsistency in interpretation of this goal.

Other Matters: Planned underwriting compliance indicator. Therefore, we question the
quality assurance review is sufficiently precise for planned use as an effective performance
indicator. We implemented quality assurance reviews several years ago in part to review the
quality of underwriting in the disaster loan making function. We are in the process of reviewing
this function and we will update you on any changes we make.
                                                                                      Appendix C

We still believe that the Quality Assurance review is an effective tool in measuring the level of
compliance with the disaster loan making underwriting standards. While we agree that the
results may vary by using different loan officers, we have attempted to mitigate this by having a
second level of review by a team leader who makes recommendations to the Associate
Administrator on the findings that will be included in the final report to the Area Director. We
have concluded that this tool is an effective performance measure and serves to identify training
needs or policy changes.

Other Matters: Planned customer satisfaction indicator. We reviewed the Draft Audit Report
and are addressing the specific issues raised in the audit report. We will update you on any
changes we make. We have also requested the comments from the Office of Communications
and Public Liaison, their comments are attached.
                                                                                         Appendix C




       Subject:        Draft Audit Report – Results Act Performance Measurement for Disaster
                       Assistance Program.


This is in response to Recommendation 1D “Revise the disaster loan currency/delinquency
indicator to include all disaster loans”. This also is a follow up to the Office of Financial
Assistance’s (OFA) initial response to this draft audit, dated December 11,2000 (attached).

Your draft audit contains the findings that currency/delinquency rates for disaster loans used as
performance indicators under the “GPRA” process overstate the currency rate by 5.7% and
understate the delinquency rate by 1.7% on disaster loans. This inaccuracy arises, according to
the report, because the indicator only includes disaster home loans serviced in our home loan
servicing centers and, therefore, excludes all disaster business loans, all disaster loans serviced
by district offices, and all loans serviced by the servicing contractor (ACS). Your
recommendation is that we include all disaster loans in a single performance indicator.

OFA is in the process of proposing new performance measures which we feel will be more
reflective of OFA activity than current agency measures. For example, using aggregate loan
volume as a performance indicator does not necessarily measure either the effectiveness of OFA
activity or agency outcomes (impact). Consistent with this approach, OFA recommends using
the following GPRA performance indicators for agency disaster loans:
• All disaster business loans serviced in our commercial loan servicing centers will be
    measured by the existing Currency and Delinquency Rate standard, and
• All disaster home loans serviced in our home loan servicing centers will be measured by the
    existing Currency and Delinquency Rate standard.

All disaster home and commercial loans serviced by district offices should be measured
separately by a Currency and Delinquency standard established by the Office of Field
Operations. Disaster home loans serviced by the private sector contractor (ACS) should not be
measured using the same standard we apply to our centers, as per the December 11th memo
                                                                                   Appendix C


referenced above. ACS’s performance is measured by its compliance with their contract with
SBA, as measured through audits, site visits and reviews.

We welcome any joint activities between OFA and OIG to develop new, more useful GPRA
performance indicators for FY 2002. If you have any further questions, please contact Gregory
Diercks, Assistant Administrator for Financial Program Operations, at 205-7538.
                                                                                                                               Appendix D


                                                   Audit Report Distribution


Recipient                                                                                                      Number of Copies


Administrator .............................................................................................................1

Deputy Administrator.................................................................................................1

Associate Administrator for Disaster Assistance.......................................................1

Associate Administrator for Financial Assistance .....................................................1

Financial Administrative Staff ...................................................................................1
 Attention: Jeff Brown

General Counsel.........................................................................................................2

General Accounting Office………………………………………………………….1
